audit report
Return
to the USDOJ/OIG Home Page
Offices, Boards and Divisions
Annual Financial Statement
Fiscal Year 1997
Report No. 98-25
September 1998
Office of the Inspector General
COMMENTARY AND SUMMARY
The Offices, Boards and Divisions (OBDs) of the Department of Justice include U.S. Attorneys, U.S. Trustees, Community Oriented Policing Services, Executive Office for Immigration Review, Legal Activities and General Programs.  Some of the OBDs' responsibilities include representing the American people in all legal matters involving the United States Government, supervising the administration of bankruptcy cases and private trustees in the Federal Bankruptcy Courts, upholding the civil rights of all Americans, enforcing laws to protect the environment, and safeguarding the consumer from fraudulent activity.  In FY 1997, the OBDs had a direct budget authority of approximately $3.9 billion, which is an eight percent increase over the OBDs' FY 1996 funding level of $3.6 billion.
This audit report contains the Annual Financial Statement of the OBDs for the fiscal year ended September 30, 1997.  The audit was performed by Price Waterhouse LLP, Certified Public Accountants, and resulted in a disclaimer of opinion on the Statement of Financial Position and Statement of Operations and Changes in Net Position.   The disclaimer resulted from the auditors being unable to obtain sufficient evidence regarding:
The validity of accounts payable, expenses, appropriated capital used, and unexpended appropriations.  The accounts payable balance was $1.2 billion as of September 30, 1997.
The validity of intragovernmental accounts receivable and revenues from sales of services to federal agencies and the resulting increase in the OBDs' available budget authority.  The reported intragovernmental accounts receivable balance was $237 million and related revenues were $261.6 million as of September 30, 1997.
Further, the OBDs' management did not meet the Department-established timetable for preparing its financial statements.
In FY 1996 the OBDs were combined with the U.S. Marshals Service as a reporting entity, which received a disclaimer of opinion on its Statement of Financial Position  (Office of Inspector General Report Number 97-33).  The auditors were not contracted to audit the Statement of Operations and Changes in Net Position in that first-year audit.  Three of  the conditions noted in the FY 1996 report relating to the OBDs continued to exist in FY 1997:  unliquidated obligations and accounts payable, security at Departmental data centers, and expense and revenue recognition.  Two new conditions were noted in the FY 1997 report:  financial reporting process and grant processing.